4545 Northwestern Drive | Zionsville, IN 46077
OFFICE 317.363.2400 | FAX 317.363.2257 | schuckitLAW.com

December 1, 2020
BY ECF
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
RE:

Sherri Cohen, Petitioner v. Equifax Information Services, LLC, et al.
USSC Case No. 20-658

Dear Clerk of the United States Supreme Court,
We represent Respondent Trans Union, LLC (“Trans Union”) in the above-referenced
matter. Pursuant to Supreme Court Rule 30.4, we seek a thirty (30) day extension of time in which
to file a brief in opposition to the Petition for a Writ of Certiorari. The Petition was filed on
November 8, 2020 and was placed on the Docket on November 13, 2020. Trans Union’s brief is
due on or before December 14, 2020.
Trans Union’s counsel also has a number of other upcoming deadlines in this case,
including cross-Motions for Attorneys’ Fees in the District Court and Plaintiff’s Motion To
Disqualify counsel in the Second Circuit. Accordingly, we respectfully request a thirty (30) day
extension of time, until January 13, 2020, to file Trans Union’s brief in opposition to the Petition
for a Writ of Certiorari.
Thank you very much for your time and attention to the foregoing.
Respectfully submitted,
SCHUCKIT & ASSOCIATES, P.C.
/s/ Camille R. Nicodemus
(Supreme Court Bar #312078)
Counsel for Defendant Trans Union, LLC
CRN/
cc:
Sherri Cohen (by regular mail and email)

